                          Independent Auditor’s Report on
                        Special-Purpose Financial Statements


Inspector General
United States Nuclear Regulatory Commission

Chairman
United States Nuclear Regulatory Commission


We have audited the accompanying reclassified balance sheets as of September 30,
2009 and 2008, and the related reclassified statements of net cost and changes in net
position for the years then ended (hereinafter referred to as the special-purpose
financial statements) contained in the special-purpose closing package of the United
States Nuclear Regulatory Commission (NRC). These special-purpose financial
statements are the responsibility of NRC’s management. Our responsibility is to
express an opinion on these special-purpose financial statements based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the
United States of America and the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United
States; and, Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, as amended. Those standards require
that we plan and perform the audit to obtain reasonable assurance about whether the
special-purpose financial statements are free of material misstatement. An audit
includes examining, on a test basis, evidence supporting the amounts and disclosures
in the special-purpose financial statements. An audit also includes assessing the
accounting principles used and significant estimates made by management, as well as
evaluating the overall special-purpose financial statement presentation. We believe that
our audit provides a reasonable basis for our opinion.

The accompanying special-purpose financial statements and accompanying notes
contained in the special-purpose closing package have been prepared for the purpose
of complying with the requirements of the U.S. Department of the Treasury’s Financial
Manual (TFM), Volume I, Part 2, Chapter 4700, solely for the purpose of providing
financial information to the U.S. Department of the Treasury and the U.S. Government
Accountability Office to use in preparing and auditing the Financial Report of the U.S.
Government, and are not intended to be a complete presentation of the NRC’s financial
statements.

In our opinion, the special-purpose financial statements and accompanying notes
referred to above present fairly, in all material respects, the financial position of the NRC
as of September 30, 2009 and 2008, and its net costs and changes in net position for
                           Independent Auditor’s Report
                on Special Purpose Financial Statements, Continued


the years then ended in conformity with accounting principles generally accepted in the
United States of America and the presentation pursuant to the requirements of the TFM,
Chapter 4700.

The information included in the Other Data is presented for the purpose of additional
analysis and is not a required part of the special-purpose financial statements, but is
supplementary information required by the TFM, Chapter 4700. We have applied
certain limited procedures, which consisted principally of inquiries of management
regarding the methodology and presentation of this information. We also reviewed such
information for consistency with the related information presented in the NRC’s financial
statements. However, we did not audit this information, and, accordingly, we express
no opinion on it.

In accordance with Government Auditing Standards and OMB Bulletin No. 07-04, as
amended, we have also issued a combined report dated November 6, 2009, which
presents our opinion on NRC’s financial statements, our opinion on NRC’s internal
control over financial reporting, and our consideration of NRC’s compliance with certain
provisions of laws and regulations. That report is an integral part of an audit of general-
purpose financial statement reporting performed in accordance with Government
Auditing Standards and OMB Bulletin No. 07-04, as amended, and should be read in
conjunction with this report in considering the results of our audit.

In planning and performing our audit of the special-purpose financial statements, we
also considered the NRC’s internal control over the financial reporting process for the
special-purpose financial statements and compliance with the TFM, Chapter 4700.
Management is responsible for establishing and maintaining internal control over
financial reporting, including Other Data, and for complying with laws and regulations,
including compliance with the TFM, Chapter 4700 requirements.

Our consideration of internal control over the financial reporting process for the special-
purpose financial statements would not necessarily disclose all matters in the internal
control over the financial reporting process that might be significant deficiencies. Under
standards issued by the American Institute of Certified Public Accountants, significant
deficiencies are deficiencies in internal control, or a combination of deficiencies, that
adversely affect the NRC’s ability to initiate, authorize, record, process, or report
financial data reliably and in accordance with accounting principles generally accepted
in the United States of America such that there is more than a remote likelihood that a
misstatement of the special-purpose financial statements being audited that is more
than inconsequential will not be prevented or detected. Material weaknesses are
significant deficiencies, or a combination of significant deficiencies, that result in a more
than remote likelihood that material misstatements in relation to the
special-purpose financial statements being audited will not be prevented or detected.
                          Independent Auditor’s Report
               on Special Purpose Financial Statements, Continued


We found no material weaknesses in the internal control over the NRC’s financial
reporting process for the special-purpose financial statements, and our tests of
compliance with the TFM, Chapter 4700 requirements disclosed no instances of
noncompliance that are required to be reported under Government Auditing Standards
and OMB Bulletin No. 07-04, as amended. However, providing opinions on internal
control over the financial reporting process for the special-purpose financial statements
or on compliance with the TFM, Chapter 4700 requirements were not objectives of our
audit of the special-purpose financial statements and, accordingly, we do not express
such opinions.

This report is intended solely for the information and use of the NRC’s Office of
Inspector General, NRC management, the U.S. Department of the Treasury, the Office
of Management and Budget, and the U.S. Government Accountability Office in
connection with the preparation and audit of the Financial Report of the United States
Government and is not intended to be and should not be used by anyone other than
these specified parties.




Arlington, Virginia
November 15, 2009
                                                                       U.S Department of the Treasury                                         11-16-2009 12:02:31
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: BALANCE SHEET                                            Fiscal Year:       2009                               Period:   SEPTEMBER

Entity:       3100-U. S. Nuclear Regulatory Commission              Reported In:       THOUSANDS                Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2009-SEPTEMBER                       2008-SEPTEMBER                     Previously Reported
Assets:
Non-Federal
Cash and Other Monetary Assets                                                    0                                   0                                  0
Accounts and Taxes Receivable                                               123,217                             116,684                            116,684
Loans Receivable                                                                  0                                   0                                  0
Inventory and Related Property                                                    0                                   0                                  0
Property, Plant and Equipment                                                31,624                              35,475                             35,475
Securities and Investments                                                        0                                   0                                  0
Investment in Government sponsored                                                0                                   0                                  0
enterprises (GSEs)
Other Assets                                                                     32                                  28                                 28
Total Non-Federal Assets                                                    154,873                             152,187                            152,187

Federal
Fund Balance with Treasury                                                  448,632                             393,478                            393,478
Federal Investments                                                               0                                   0                                  0
Accounts Receivable                                                           4,907                               4,692                              4,692
Interest Receivable                                                               0                                   0                                  0
Loans Receivable                                                                  0                                   0                                  0
Transfers Receivable                                                              0                                   0                                  0
Benefit Program Contributions                                                     0                                   0                                  0
Receivable
Advances to Others and Prepayments                                            3,340                               4,121                              4,121
Other Assets (without reciprocals)                                                0                                   0                                  0
Total Federal Assets                                                        456,879                             402,291                            402,291
Total Assets                                                                611,752                             554,478                            554,478




                                                                                              -1-
                                                                       U.S Department of the Treasury                                          11-16-2009 12:02:31
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: BALANCE SHEET                                            Fiscal Year:       2009                                Period:   SEPTEMBER

Entity:       3100-U. S. Nuclear Regulatory Commission              Reported In:       THOUSANDS                 Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2009-SEPTEMBER                       2008-SEPTEMBER                      Previously Reported
Liabilities
Non-Federal
Accounts Payable                                                            (37,023)                             (41,763)                            (41,763)
Federal Debt Securities Held by the                                               0                                    0                                   0
Public
Federal Employee and Veteran                                                  (9,765)                             (8,851)                             (8,851)
Benefits Payable
Environmental and Disposal                                                         0                                   0                                      0
Liabilities
Benefits Due and Payable                                                          0                                    0                                   0
Loan Guarantee Liabilities                                                        0                                    0                                   0
Keepwell payable                                                                  0                                    0                                   0
Insurance Programs                                                                0                                    0                                   0
Other Liabilities                                                           (78,502)                             (69,156)                            (69,156)
Total Non-Federal Liabilities                                              (125,290)                            (119,770)                           (119,770)

Federal
Accounts Payable                                                            (13,977)                             (12,360)                            (12,360)
Federal Debt                                                                      0                                    0                                   0
Interest Payable                                                                  0                                    0                                   0
Loans Payable                                                                     0                                    0                                   0
Transfers Payable                                                                 0                                    0                                   0
Benefit Program Contributions                                                (5,362)                              (4,742)                             (4,742)
Payable
Advances from Others and Deferred                                                (87)                                (74)                                (74)
Credits
Other Liabilities (without reciprocals)                                          (40)                                (28)                                (28)




                                                                                              -2-
                                                                       U.S Department of the Treasury                                       11-16-2009 12:02:31
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: BALANCE SHEET                                            Fiscal Year:       2009                             Period:   SEPTEMBER

Entity:       3100-U. S. Nuclear Regulatory Commission              Reported In:       THOUSANDS                 Decimal Point:   ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2009-SEPTEMBER                       2008-SEPTEMBER                   Previously Reported
Total Federal Liabilities                                                   (19,466)                             (17,204)                         (17,204)
Total Liabilities                                                          (144,756)                            (136,974)                        (136,974)

Net Position
Net Position-Non-Earmarked Funds                                           (466,996)                            (417,504)                        (417,504)
Net Position-Earmarked Funds                                                      0                                    0                                0
Total Net Position                                                         (466,996)                            (417,504)                        (417,504)
Total Liabilities and Net Position                                         (611,752)                            (554,478)                        (554,478)




                                                                                              -3-
                                                                       U.S Department of the Treasury                                          11-16-2009 12:02:31
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                           2009                                Period:   SEPTEMBER

Entity:       3100-U. S. Nuclear Regulatory Commission              Reported In:       THOUSANDS                 Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2009-SEPTEMBER                       2008-SEPTEMBER                      Previously Reported
Beginning Net Position                                                     (417,504)                            (281,191)                           (281,191)
Non-Federal Prior Period                                                          0                                    0                                   0
Adjustments (Not Restated)
Federal Prior Period Adjustments                                                   0                                   0                                      0
(Not Restated)
Adjusted Beginning Net Position                                            (417,504)                            (281,191)                           (281,191)
Balance

Non-Federal Nonexchange Revenue
Individual Income Tax and Tax                                                      0                                   0                                      0
Witholdings
Corporation Income Taxes                                                           0                                   0                                      0
Unemployment Taxes                                                                 0                                   0                                      0
Excise Taxes                                                                       0                                   0                                      0
Estate and Gift Taxes                                                              0                                   0                                      0
Custom Duties                                                                      0                                   0                                      0
Other Taxes and Receipts                                                           0                                   0                                      0
Miscellaneous Earned Revenue                                                       0                                   0                                      0
Total Non-Federal Nonexchange                                                      0                                   0                                      0
Revenue

Federal Nonexchange Revenue
Federal Securities Interest Revenue                                                0                                   0                                      0
Borrowing and other interest revenue                                               0                                   0                                      0
Benefit Program Revenue                                                            0                                   0                                      0
(nonexchange)
Other taxes and receipts                                                           0                                   0                                      0




                                                                                              -4-
                                                                       U.S Department of the Treasury                                          11-16-2009 12:02:31
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                           2009                                Period:   SEPTEMBER

Entity:       3100-U. S. Nuclear Regulatory Commission              Reported In:       THOUSANDS                 Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2009-SEPTEMBER                       2008-SEPTEMBER                      Previously Reported
Total Federal Nonexchange Revenue                                                  0                                   0                                      0

Budgetary Financing Sources:
Appropriations received as adjusted                                        (138,677)                            (133,414)                           (133,414)
(rescissions and other adjustments)
Appropriation of unavailable special                                               0                                   0                                      0
or trust fund receipts transfers-in
Appropriation of unavailable special                                               0                                   0                                      0
or trust fund receipts Transfers-out
Nonexpenditure transfers-in of                                              (49,000)                             (29,025)                            (29,025)
unexpended appropriations and
financing sources
Nonexpenditure Transfers-out of                                                    0                                   0                                      0
unexpended appropriations and
financing sources
Expenditure transfers-in of financing                                              0                                   0                                      0
sources
Expenditure Transfers-out of                                                       0                                   0                                      0
financing sources
Other budgetary financing sources                                                 0                                    0                                   0
Total Budgetary Financing Sources                                          (187,677)                            (162,439)                           (162,439)

Other Financing Sources:
Transfers-in Without Reimbursement                                                 0                                   0                                      0
Transfers-out Without                                                              0                                   0                                      0
Reimbursement
Imputed Financing Source                                                    (32,207)                             (26,911)                            (26,911)




                                                                                              -5-
                                                                       U.S Department of the Treasury                                         11-16-2009 12:02:31
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                           2009                               Period:   SEPTEMBER

Entity:       3100-U. S. Nuclear Regulatory Commission              Reported In:       THOUSANDS                 Decimal Point:     ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2009-SEPTEMBER                       2008-SEPTEMBER                     Previously Reported
Other non-budgetary financing                                                      0                             (93,434)                           (93,434)
sources
Total Other Financing Sources                                               (32,207)                            (120,345)                          (120,345)


Net Cost                                                                    170,392                             146,471                            146,471

Ending Net Position Balance                                                (466,996)                            (417,504)                          (417,504)




                                                                                              -6-
                                                                       U.S Department of the Treasury                                          11-16-2009 12:02:31
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF NET COST                                    Fiscal Year:       2009                                Period:   SEPTEMBER

Entity:       3100-U. S. Nuclear Regulatory Commission              Reported In:       THOUSANDS                 Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2009-SEPTEMBER                       2008-SEPTEMBER                      Previously Reported
Gross Cost:
Non-Federal Gross Cost                                                      745,373                             683,890                             683,890
Interest on Debt Held by the Public                                               0                                   0                                   0
Total Non-Federal Gross Cost                                                745,373                             683,890                             683,890

Federal Gross Cost
Benefit Program Costs                                                        97,629                              86,472                              86,472
Imputed Costs                                                                32,207                              26,911                              26,911
Buy/Sell Costs                                                              167,650                             146,778                             146,778
Federal Securities Interest Expense                                               0                                   0                                   0
Borrowing and Other Interest                                                      0                                   0                                   0
Expense
Borrowing Losses                                                                  0                                   0                                   0
Other Expenses (without reciprocals)                                              0                                   0                                   0
Total Federal Gross Cost                                                    297,486                             260,161                             260,161
Department Total Gross Cost                                               1,042,859                             944,051                             944,051

Earned Revenue
Non-Federal Earned Revenue                                                 (826,970)                            (758,859)                           (758,859)

Federal Earned Revenue
Benefit Program Revenue (exchange)                                                0                                    0                                   0
Buy/Sell Revenue                                                            (45,497)                             (38,721)                            (38,721)
Federal Securities Interest Revenue                                               0                                    0                                   0
(exchange)
Borrowing and Other Interest                                                       0                                   0                                      0
Revenue (Exchange)




                                                                                              -7-
                                                                       U.S Department of the Treasury                                         11-16-2009 12:02:31
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF NET COST                                    Fiscal Year:       2009                               Period:   SEPTEMBER

Entity:       3100-U. S. Nuclear Regulatory Commission              Reported In:       THOUSANDS                 Decimal Point:     ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2009-SEPTEMBER                       2008-SEPTEMBER                     Previously Reported
Borrowings Gains                                                                  0                                    0                                  0
Other Revenue (without reciprocals)                                               0                                    0                                  0
Total Federal Earned Revenue                                                (45,497)                             (38,721)                           (38,721)

Department Total Earned Revenue                                            (872,467)                            (797,580)                          (797,580)

Net Cost                                                                    170,392                             146,471                            146,471




                                                                                              -8-
